SEPTEMBER 3, 2008
  REVIEW REPORT




                                                      OFFICE OF AUDITS




GLENN RESEARCH CENTER NEEDS TO BETTER DEFINE
       ROLES AND RESPONSIBILITIES FOR
            EMERGENCY RESPONSE




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-08-027 (ASSIGNMENT NO. S-06-011-01)
Final report released by:

   signed
Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

EPP          Emergency Preparedness Plan
ERT          Emergency Response Team
FY           Fiscal Year
HSPD         Homeland Security Presidential Directive
ICS          Incident Command System
IRIS         Incident Reporting Information System
MOU          Memorandum of Understanding
NIMS         National Incident Management System
NPR          NASA Procedural Requirements
SCBA         Self-Contained Breathing Apparatus


                                                        REPORT NO. IG-08-027
SEPTEMBER 3, 2008




                                                                           OVERVIEW

   GLENN RESEARCH CENTER NEEDS TO BETTER DEFINE ROLES
      AND RESPONSIBILITIES FOR EMERGENCY RESPONSE

                                                                             The Issue

  This review was initiated in response to two hotline complaints concerning the Glenn
  Research Center at Lewis Field: the first concerned laboratory safety and the review
  process for granting safety permits, and the second concerned first responders and their
  actions during a January 2006 fire in a Glenn underground tunnel. Our report, “Effective
  Inspection Program Key to Improving Laboratory Safety at Glenn Research Center”
  (IG-07-032, September 24, 2007), addressed laboratory safety and the process for
  reviewing, approving, and maintaining safety permits for Glenn laboratory operations.
  This report addresses the response to Glenn emergencies.

  The primary goal of an emergency response system is to mitigate the harmful effects of
  an emergency by preventing loss of life, serious injury, and damage to property or the
  environment. Federal requirements for emergency response are contained in Homeland
  Security Presidential Directive (HSPD)-5, “Management of Domestic Incidents,”
  February 28, 2003. HSPD-5 establishes general emergency response requirements for all
  Federal agencies and requires that Federal agencies develop and administer the National
  Incident Management System (NIMS). NIMS provides a consistent Nation-wide
  template to enable all government, private sector, and nongovernmental organizations to
  work together during domestic incidents and includes the implementation of an Incident
  Command System (ICS) during each emergency response. ICS is a standard, on-scene,
  all-hazards incident management system that applies to firefighters, law enforcement
  personnel, hazardous materials teams, rescuers, and emergency medical teams. ICS is
  designed to facilitate the work of cross-functional teams in a smooth, coordinated effort
  under a single management system. This enables responders to effectively work together
  in preparing for, preventing, responding to, and recovering from emergencies.

  At Glenn, the organizations responsible for emergency response include the Office of
  Security Management and Safeguards; the Safety and Mission Assurance Directorate;
  and the municipalities of Brook Park, Ohio, and Fairview Park, Ohio. The Glenn
  Emergency Management Coordinator is assigned to the Office of Security Management
  and Safeguards and is responsible for preparing the Glenn Emergency Preparedness Plan
  (EPP). The Glenn EPP requires that emergency responders comply with ICS during all
  Center emergencies.




REPORT NO. IG-08-027
                                                                                                          OVERVIEW



     We reviewed the management of Glenn’s emergency response system and its adherence
     to Federal and NASA guidance. We analyzed the actions taken by Glenn responders
     during 10 of the 572 emergencies experienced at Glenn during fiscal years (FYs) 2005
     through 2007. The details of our review’s scope and methodology are in Appendix A.

     Results

     The lack of clearly defined roles, responsibilities, and lines of authority for Glenn
     responders, along with the absence of memorandums of understanding (MOU) with off-
     site responding organizations, has negatively affected the Center’s ability to implement
     ICS and respond effectively to emergencies. When ICS is not properly implemented
     during an emergency, the chain of command and lines of communication can become
     confused, increasing the risk of injury for responders and other personnel, as well as
     increasing the risk of damage to NASA assets. For at least two of the emergencies that
     we reviewed, that confusion could have resulted in serious injury to the responders and
     further damage to Glenn assets.

     We found that the Glenn first responders failed to adequately implement ICS during each
     of the 10 emergencies that we reviewed. Specifically, Glenn emergency responders

            •   did not keep a safe distance from the emergency scene or adequately assess the
                nature of the emergency (2 out of 10);

            •   did not initiate an emergency notification protocol based on the severity and type
                of emergency (5 out of 10);

            •   failed to isolate and deny entry into areas “immediately dangerous to life and
                health” 1 (3 out of 10);

            •   allowed personnel to enter hazardous environments without appropriate
                respiratory protection (2 out of 10);

            •   failed to provide critical institutional information to responding fire departments
                (4 out of 10); and

            •   failed to ensure that all reports related to the emergency response contained
                accurate and consistent information (10 out of 10).

     Although the EPP required Glenn emergency responders to implement ICS when
     responding to emergencies, it did not clearly define the roles, responsibilities, authority,
     and limitations for each of the responders and responding organizations under ICS. In

     1
         An area with an atmosphere that will cause irreversible adverse health effects or impair an individual’s
         ability to escape is “immediately dangerous to life and health,” according to the Occupational Safety and
         Health Administration Act, 29 Code of Federal Regulations 1910 (Standard Number 1910.134).



ii                                                                                         REPORT NO. IG-08-027
OVERVIEW



  addition, Glenn did not have MOUs with local police, fire, and rescue departments
  designating how they should coordinate and integrate with the Glenn responders during
  an emergency. Glenn’s ability to respond effectively to on-site emergencies is contingent
  on the mobilization and use of resources from multiple and diverse response
  organizations. When properly implemented, ICS provides a management system that
  allows these resources to be effectively managed and integrated.

                                                               Management Action

  To improve the effectiveness of Glenn’s emergency response system, we recommended
  that the Chief, Office of Security Management and Safeguards, review the roles and
  responsibilities assigned to each of the responding organizations and ensure that the
  responders are qualified to assume those roles and responsibilities and can effectively and
  timely respond to Glenn emergencies. Once the review is completed, the Chief, Office of
  Security Management and Safeguards, should revise the EPP, if necessary, based on the
  results of the review. We also recommended that the Chief, Office of Security
  Management and Safeguards, revise the EPP to require that each Glenn organization with
  an emergency response role develop standard operating procedures detailing the specific
  responsibilities for their respective responder personnel. To ensure that the standard
  operating procedures complement the EPP and do not provide contradictory information,
  we recommended that the EPP be revised to require the Glenn Emergency Management
  Coordinator to review and approve the standard operating procedures before
  implementation. We also recommended that the EPP require the Emergency
  Management Coordinator to reconcile all emergency response reports filed, to include
  those by off-site responding organizations, to ensure that the reports are accurate and
  consistent. Finally, we recommended that the Glenn Director establish MOUs with all
  non-NASA organizations that respond to emergencies at the Center. The Emergency
  Management Coordinator should participate in developing those MOUs.

  In a response to a draft of this report, the Glenn Director concurred with our
  recommendations and described actions to be taken by the Center to improve the
  effectiveness of Glenn’s emergency response system. First, the Glenn Emergency
  Management Coordinator will review the roles and responsibilities of on-site and off-site
  emergency responders by November 30, 2009. Second, the Chief, Office of Security
  Management and Safeguards, in conjunction with the Director of Center Operations, the
  Director of Safety and Mission Assurance, and the Emergency Management Coordinator
  will analyze and determine the best organization for emergency response and incorporate
  the results into the Center EPP by July 30, 2009. Third, the Emergency Management
  Coordinator, in cooperation with the Chief, Security Management and Safeguards Office;
  Chief, Safety, Health, and Environmental Division; the Office of Chief Counsel; and the
  Center Director’s Office, will initiate negotiations to establish MOUs with adjoining or
  jurisdictional organizations that provide fire suppression, fire rescue, emergency medical
  services, police, and hazardous chemicals and materials response by December 10, 2009.
  Fourth, the Safety, Health, and Environmental Division will develop a new emergency


REPORT NO. IG-08-027                                                                            iii
                                                                                        OVERVIEW



     action plan for each facility at Glenn by April 23, 2009. (See Appendix B for the full text
     of management’s comments.)

     Within the period of the audit, Glenn instituted the use of the ICS and implemented an
     aggressive training effort to upgrade the credentials of emergency responders. Glenn
     indicated in their response that they have met and exceeded all NASA required NIMS
     training by training 114 individuals, with seven of the 114 trained to ICS 300 level and
     five of the 114 trained to the ICS 400 level.

     We consider management’s proposed actions to be responsive. The recommendations
     are resolved and will be closed following verification that all actions have been
     completed.




iv                                                                         REPORT NO. IG-08-027
September 3, 2008




                                                        CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 2
      Other Matters of Interest _______________________________ 2

  RESULTS
      ICS Not Adequately Implemented during
         Glenn Emergencies __________________________________ 3

  APPENDIX A
      Scope and Methodology _______________________________ 17
      Review of Internal Controls _____________________________ 18
      Prior Coverage ______________________________________ 18

  APPENDIX B
      Management Comments _______________________________ 20

  APPENDIX C
      Report Distribution ___________________________________ 25




REPORT NO. IG-08-027
September 3, 2008




                                                                     INTRODUCTION


Background

  The primary goal of an emergency response system is to effectively mitigate or lessen the
  harmful effects from an emergency by preventing loss of life, serious injury, and damage
  to property or the environment. Common elements of an emergency response system are
  site assessment, safety, rescue, containment, mitigation, recovery, and documentation.

  The Federal Government established general emergency response requirements in
  Homeland Security Presidential Directive (HSPD)-5, “Management of Domestic
  Incidents,” February 28, 2003. HSPD-5 directs all Federal agencies to develop and
  administer a National Incident Management System (NIMS). NIMS provides a
  consistent approach that enables Federal, state, and local governments to work together in
  preparing for, preventing, responding to, and recovering from emergencies. NIMS
  requires the implementation of an Incident Command System (ICS), which is an on-scene
  management system that provides a standard structured approach for responding to
  emergencies.

  Incident Command System. ICS is a standard, on-scene, all-hazards incident
  management system that is used by all levels of government—Federal, state, and local—
  as well as many private sector and nongovernmental organizations. ICS is applicable
  across all disciplines, including firefighters, law enforcement personnel, hazardous
  materials teams, rescuers, and emergency medical teams. The system is not exclusive to
  any single discipline or circumstance; instead, ICS is designed to be flexible, allowing
  responders from all jurisdictional levels and across all functional disciplines to work
  together in a smooth, coordinated effort under a single management system. ICS uses a
  top-down modular organizational structure that emphasizes a strict chain of command
  that begins with the on-scene Incident Commander. The Incident Commander is the
  individual in overall command of the emergency response effort. The first responder on
  the scene assumes the role of the Incident Commander until relieved by a more qualified
  authority, such as the fire chief in the case of a fire.

  Glenn Research Center Emergency Response Organizations. The primary
  organizations responsible for emergency response at Glenn are as follows:

      •   The Office of Security Management and Safeguards, Center Operations
          Directorate, is responsible for Glenn’s Emergency Preparedness Program and
          emergency response for all security-related emergencies. Within the Office of
          Security Management and Safeguards are the Emergency Management
          Coordinator and the support services contactor, Knight Protective Services, which
          provides security guards and dispatchers.


REPORT NO. IG-08-027                                                                           1
                                                                                  INTRODUCTION



       •   The Safety, Health, and Environmental Division of Glenn’s Safety and Mission
           Assurance Directorate is responsible for emergency response for non-security
           related emergencies. Within the Division’s Safety Branch, selected safety
           specialists are designated as Center “first responders.” As part of their duties,
           those personnel are required to respond to all Glenn emergencies during regular
           duty hours. The Division also provides occupational health specialists and
           environmental engineers when needed for injuries or chemical spills.

       •   The municipalities of Brook Park and Fairview Park provide fire, medical, and
           police services for Glenn emergencies such as fires, personnel injury, chemical
           spills, and criminal investigations.

    Depending on the type and severity of the emergency, Glenn may also deploy an Emergency
    Response Team (ERT). In addition to personnel from Glenn’s Security and Safety Offices,
    the ERT may include personnel with other functional areas of expertise (such as facilities,
    communications, and media relations).

    NASA Guidance. NASA’s implementing guidance for NIMS is contained in NASA
    Procedural Requirements (NPR) 8715.2, “NASA Emergency Preparedness Plan
    Procedural Requirements,” Change 3, March 3, 2005. In accordance with NPR 8715.2,
    Glenn developed and implemented an Emergency Preparedness Plan (EPP) in October
    2006. The Glenn EPP requires that emergency responders comply with ICS during all
    Center emergencies.


Objectives

    Our overall objective was to evaluate the effectiveness of Glenn’s emergency response
    system. Specifically, we evaluated the adequacy of Glenn’s emergency response policies
    and procedures, the implementation of those policies and procedures, and Glenn
    management’s oversight of the emergency response system. See Appendix A for details
    of the review’s scope and methodology, our review of internal controls, and prior
    coverage.


Other Matters of Interest

    During our review, we identified nine Glenn facilities that had inadequate emergency
    evacuation plans. Because evacuation plans are an element of emergency preparedness
    and not emergency response, we discuss the issue separately on page 13 of this report.
    The discussion describes the need for Glenn to ensure that evacuation plans are up to date
    and that the plans include maps showing both primary and secondary routes of escape.




2                                                                         REPORT NO. IG-08-027
RESULTS




                                                                        ICS NOT ADEQUATELY
                                                                        IMPLEMENTED DURING
                                                                         GLENN EMERGENCIES

             Glenn first responders failed to adequately implement ICS during each of the
             emergencies that we reviewed. Specifically, we identified 26 instances of ICS
             noncompliance during our review of 10 Glenn emergencies that occurred during
             fiscal year (FY) 2005 through FY 2007. For those 10 emergencies, the Glenn
             emergency responders

                  •   did not keep a safe distance from the emergency scene or adequately assess
                      the nature of the emergency (2 out of 10);

                  •   did not initiate an emergency notification protocol based on the severity and
                      type of emergency (5 out of 10);

                  •   failed to isolate and deny entry into areas “immediately dangerous to life and
                      health” 2 (3 out of 10);

                  •   allowed personnel to enter hazardous environments without appropriate
                      respiratory protection (2 out of 10);

                  •   failed to provide critical institutional information to responding fire
                      departments (4 out of 10); and

                  •   failed to ensure that all reports related to the emergency response contained
                      accurate and consistent information (10 out of 10).

             Noncompliance with ICS occurred due to the lack of clear guidance regarding the
             roles and responsibilities of the Glenn responders and the responding organizations.
             Although the EPP contained general information concerning those roles and
             responsibilities, it did not require that more specific guidance be prepared at the
             organizational level. In addition, Glenn did not have memorandums of
             understanding (MOUs) with local police, fire, and rescue departments designating
             how they should coordinate and integrate with the Glenn responders during an
             emergency.

             The lack of clearly defined roles, responsibilities, and lines of authority for Glenn
             responders, along with the absence of MOUs with off-site responding organizations,
             has negatively affected the Center’s ability to respond effectively to emergencies.
  2
      An area with an atmosphere that will cause irreversible adverse health effects or impair an individual’s
      ability to escape is “immediately dangerous to life and health,” according to the Occupational Safety and
      Health Administration Act, 29 Code of Federal Regulations 1910 (Standard Number 1910.134).



REPORT NO. IG-08-027                                                                                              3
                                                                                                      RESULTS



            Specifically, when ICS is not properly implemented during an incident, the chain of
            command and lines of communication can become confused, increasing the risk of
            injury for responders and other personnel, as well as increasing the risk of damage to
            NASA assets. During at least two of the emergencies that we reviewed, that
            confusion could have resulted in serious injury to the responders and further damage
            to Glenn assets.


Glenn’s Emergency Response System

    Glenn’s emergency response system is initiated when the Emergency Dispatch Center is
    notified of an alarm or receives a 911 call (see Figure 1). The nature of the emergency
    dictates whether the dispatcher contacts only Glenn responders or contacts both Glenn
    responders and local municipalities.

      The Emergency Dispatch          Based on the information                     The dispatcher radios
      Center receives an alarm        provided, the dispatcher                     the applicable
      or call that an emergency       designates the emergency                     responding organizations
      is taking place and             as confirmed or not                          regarding the location
      collects as much                                             Not Confirmed   and type of emergency.
                                      confirmed.
      information as possible
      concerning the
      emergency.



                                                                                   The responders notify
                                                                                   dispatch upon arrival
                                             Confirmed                             at the emergency.



                                      The dispatcher contacts                      The responders radio
                                      the appropriate Glenn and                    the dispatcher
                                      off-site emergency                           regarding the details
                                      response personnel and                       and their assessment
                                      records all information                      of the emergency and,
                                      relevant to the emergency.                   if necessary, request
                                                                                   additional support
                                                                                   from the local fire
                                                                                   department and/or the
                                                                                   ERT.


    Figure 1. Flowchart of Glenn’s Emergency Response System




4                                                                                  REPORT NO. IG-08-027
RESULTS



  Regardless of the type of emergency, generally the Glenn first responders are the first to
  arrive on scene and, as such, assume the Incident Commander role until relieved by a
  more qualified authority. As initial Incident Commander, the first responders direct the
  initial emergency response and mitigation activities, which according to the ICS and the
  Glenn EPP consist of

        •    providing immediate response to the scene;

        •    assessing the situation;

        •    notifying the Emergency Dispatch Center if Glenn or municipality resources are
             needed;

        •    evacuating the area, if necessary; and

        •    establishing a command post and notifying the dispatcher of its location.

  Once relieved by a more qualified authority (such as a fire chief in the case of a fire), the
  first responders are required to provide support to the new Incident Commander.


ICS Noncompliance

  We reviewed Glenn’s response to 10 emergencies during FYs 2005 through 2007 (listed
  in Table 1). We selected those emergencies from the Incident Reporting Information
  System (IRIS), NASA’s database for recording mishaps. 3 Mishap classifications range
  from a Type A Mishap, which is the most severe, to a Close Call, which is the least
  severe. To cover the spectrum of Glenn emergencies, our sample selection included at
  least one emergency from each mishap classification (see Appendix A for details of our
  sampling plan).




  3
      NASA defines a mishap as an unplanned event that results in injury to personnel or damage to property.
      NASA categorizes mishaps based on the severity of injury to personnel or total cost of damage to
      property.



REPORT NO. IG-08-027                                                                                           5
                                                                                                                   RESULTS




                                 Table 1. Emergencies Selected for Review

            Date                          Emergency                     IRIS Number               Classification

      June 13, 2007                exterior building fire             2007-164-00005             Type C Mishap

      May 4, 2007                  interior building fire             2007-124-00010             Close Call

      April 5, 2007                exterior gas line rupture          2007-096-00019             Close Call

      July 25, 2006                construction site injury           2006-206-00011             Type B Mishap

      April 6, 2006                interior chemical release           2006-097-00002            Type D Mishap

      January 9, 2006              interior tunnel fire               2006-010-00001             Type A Mishap

      November 7, 2005             employee injury                    2005-340-00011             Close Call

      July 27, 2005                low-oxygen alarm                   2005-209-00003             Close Call

      March 16, 2005               mercury spill                      2005-097-00005             Close Call*

      March 9, 2005                fire and explosion                 2005-069-00008             Type C Mishap
     * IRIS classified this emergency as “First Aid,” which is not required to be recorded in IRIS. As such, we
       considered this a “Close Call.”


    During each of the 10 emergencies that we reviewed, the Glenn first responders failed to
    adequately implement ICS. Specifically, the responders failed to adequately assess the
    incident from a safe distance, implement appropriate emergency notification procedures,
    isolate and deny entry, use appropriate personal protective equipment, share critical
    information with responding municipalities, or fully document all emergency response
    activities.

    Safe Approach and Assessment. During the July 27, 2005, low-oxygen alarm and the
    March 9, 2005, fire and explosion, Glenn first responders failed to maintain a safe
    distance from the emergency while performing their initial assessment. ICS requires
    responders to assess the emergency from a safe distance, which is typically upwind and
    upslope. The overall priorities when assessing an emergency and determining the
    appropriate level of response are (1) life safety, including the safety of the responders;
    (2) incident stabilization; and (3) property preservation. At Glenn, this initial assessment
    is reported to the Emergency Dispatch Center, along with a request for municipality
    assistance if needed.

    During the initial assessment of the July 27, 2005, low-oxygen alarm, the Glenn
    responders failed to keep a safe distance from an oxygen-deficient atmosphere when they
    entered a building without adequate respiratory protection. Specifically, the first
    responders entered two rooms in which the percentage of oxygen had dropped to unsafe
    levels due to a nitrogen leak. Any imbalance or displacement of oxygen by nitrogen
    within a given space can pose an asphyxiation hazard and because nitrogen is both



6                                                                                              REPORT NO. IG-08-027
RESULTS



  odorless and tasteless, unprotected victims have little or no warning of exposure until
  they collapse from the lack of oxygen. In this instance, the first responders escaped
  injury only because the nitrogen (which is heavier than oxygen) had not reached the
  breathing level (mouth and nose) of the responders.

  The Glenn responders also failed to keep a safe distance from the March 9, 2005, fire and
  explosion. During the initial response, the first responders failed to assess the incident
  from a safe distance and instead entered the area where the fire and explosion occurred.
  Shortly after they entered that area, a second explosion occurred; the concussion from the
  second explosion was significant enough to cause temporary hearing loss to one of the
  responders.

  Emergency Notification Protocol. During five emergencies—the April 5, 2007,
  exterior gas line rupture; the July 25, 2006, construction site injury; the January 9, 2006,
  interior tunnel fire; the July 27, 2005, low-oxygen alarm; and the March 16, 2005,
  mercury spill—the Glenn responders failed to initiate an emergency notification protocol
  based on the severity and type of the emergency. In accordance with ICS and the
  Center’s EPP, once an emergency is declared and an Incident Commander and command
  post initiated, the Incident Commander should contact dispatch to ensure that all required
  resources, including personnel and equipment, are notified and en route to the
  emergency. That emergency notification protocol includes notifying Glenn’s ERT during
  certain types of Center emergencies. Notification of the ERT is vitally important because
  of the organizational and functional expertise the ERT provides to the Incident
  Commander. For the 10 emergencies that we reviewed, Table 2 illustrates those
  instances in which the ERT should have been notified but was not.




REPORT NO. IG-08-027                                                                             7
                                                                                                        RESULTS




                                  Table 2. Emergencies Requiring ERT Notification

                                                                      Emergency

                  ERT                April 5, 2007   July 25, 2006   Jan. 9, 2006   July 27, 2005     March 16,
          Notification Criteria      (exterior gas   (construction     (interior    (low-oxygen         2005
                                     line rupture)    site injury)   tunnel fire)       alarm)      (mercury spill)

    Type A, B, or C Mishap                                X               X

    Municipality response
                                                          X               X
     requested

    Center or building
                                                                          X
      evacuation or closure


    Major power failure                                                   X


    Fire or explosion                                                     X

    Medical emergency
     requiring transport to                               X
     hospital

    Hazardous material release
                                          X                               X              X                X
     and chemical spill



    Hazard Isolation. During three emergencies—the July 25, 2006, construction site
    injury; the July 27, 2005, low-oxygen alarm; and the March 9, 2005, fire and explosion—
    Glenn first responders failed to “isolate and deny entry” 4 to the incident scene, including
    areas that were “immediately dangerous to life and health.” ICS requires the Incident
    Commander to ensure the safety of personnel, including emergency responders, by
    isolating the scene, denying unnecessary access, and preventing harmful exposures.
    Under ICS, isolation—securing the scene—is the first step in the protective action
    process and is implemented to prevent injury to the emergency responders and to
    establish control over the emergency scene. The Incident Commander is responsible for
    ensuring that all response activities are focused on preventing further injury to personnel
    or damage to property.




    4
        The U.S. Department of Transportation’s Emergency Response Guidebook defines “isolate hazard and
         deny entry” as a means to keep personnel away from hazardous environments.



8                                                                                       REPORT NO. IG-08-027
RESULTS



  During the July 25, 2006, construction site injury, first responders failed to secure the
  scene of the incident and to clear the area of nonessential personnel. In this incident, a
  construction worker was seriously injured when he fell from an extension ladder.
  According to two Glenn Safety Engineers who responded to the incident, the area was
  not fully cleared of nonessential personnel until after the arrival of the fire department.
  In this incident, only those individuals directly involved in providing care to the injured
  worker should have been permitted to remain in the area. The Incident Commander
  should have immediately isolated the area surrounding the victim to ensure the safety of
  personnel, to provide sufficient space that would allow the responders to provide care,
  and to protect the victim’s privacy.

  The incident scene was also not secured during the July 27, 2005, low-oxygen alarm and
  the March 9, 2005, fire and explosion. In both cases, the first responders failed to isolate
  and deny entry into the area around the incident and unnecessarily exposed themselves to
  a situation that could have been immediately dangerous to life and health.

  Respiratory Protection. During the
  January 9, 2006, interior tunnel fire and the
  July 27, 2005, low-oxygen alarm, the Glenn
  first responders failed to use appropriate
  respiratory protective equipment when
  responding to a potentially hazardous
  environment. ICS requires all emergency
  responders to use appropriate personal
  protective equipment for the tasks they are to
  perform.
                                                                      Figure 2. Responder Using Self-
  Glenn’s “Occupational Health Programs                Contained Breathing Apparatus
  Manual,” Chapter 4, “Respiratory Protection
  Program,” February 2007, 5 addresses this ICS requirement by specifying the required
  equipment. A self-contained breathing apparatus (SCBA), as shown in Figure 2, should
  be used in an unknown, oxygen-deficient, or immediately dangerous to life and health
  atmosphere. Glenn’s Manual further requires that personnel be trained in the use and
  limitations of an SCBA before using it.

  In the January 9, 2006, interior tunnel fire, the Glenn first responders and the City of
  Brook Park’s Fire Chief were operating under a unified command system. 6 During this
  emergency, a Brook Park firefighter and two Glenn employees were permitted to enter a
  building filled with dense smoke without respiratory protective equipment. The fire,
  which had originated in an electrical splicing chamber inside an underground utility

  5
      The Manual is continually updated; respiratory requirements were in effect at the time of the
      emergencies.
  6
      Under ICS, a unified command system is when two or more agencies work together to manage an
      incident.



REPORT NO. IG-08-027                                                                                    9
                                                                                                                  RESULTS



     tunnel, had resulted in the propagation of dense smoke throughout the tunnel and into
     adjoining buildings. As such, anyone entering the tunnel or buildings should have been
     wearing personal protective equipment, including respiratory protection to prevent
     asphyxiation. The unified command also allowed one of the Glenn first responders to
     borrow an SCBA from one of the responding fire departments and, on two separate
     occasions, he accompanied the firefighters into the smoke-filled buildings. The first
     responder did not have the authority, training, or certification to use the SCBA. Without
     such authority, training, and certification, the first responder may not have been aware of
     the limits of the SCBA, which could have resulted in injury to him and the other
     responders.

     During the July 27, 2005, low-oxygen alarm, the first responders entered a building
     without appropriate respiratory protection. At the time of this incident, the first
     responders had been removed from the Center’s respiratory protection program and, as a
     result, did not have access to respiratory protective equipment such as an SCBA.
     Because the first responders believed that they were expected to respond to potentially
     oxygen-deficient atmospheres, they entered two rooms where the oxygen had been
     reduced to an unsafe level, unnecessarily exposing them to an asphyxiation hazard.

     Information Sharing with Local Municipalities. During four emergencies—the
     June 13, 2007, exterior building fire; the May 4, 2007, interior building fire; the
     January 9, 2006, interior tunnel fire; and the March 9, 2005, fire and explosion—the
     Glenn responders did not share critical information with the responding local fire
     departments. ICS requires responders to establish a process for gathering, sharing, and
     managing all incident-related information. The Glenn EPP addresses this ICS
     requirement by requiring Glenn first responders to provide prefire plans, 7 blueprints,
     maps, and other supporting documentation to responding fire and emergency personnel
     for use during on-site emergencies. However, during these four emergencies, the Glenn
     first responders did not have access to all necessary information and, therefore, could not
     provide it to the responding fire departments. Although the first responders did carry
     prefire plans in their vehicles, they did not carry or have electronic access to utility maps,
     evacuation plans, chemical inventory lists, or Material Safety Data Sheets. 8 Further, the
     prefire plans that the Glenn responders did have were either not provided to the
     responding firefighters or the plans failed to include relevant information. If
     appropriately designed and implemented, prefire plans are invaluable to responding fire
     departments because the plans identify hazards that could potentially impact firefighter
     safety. For each of the four emergencies, the responding firefighters entered a building
     without having crucial knowledge of the building layout and the location of potential
     hazards, which significantly increased their risk of injury.

     7
         Title 15, United States Code, Chapter 49, Section 2227, “Fire Safety Systems in Federally Assisted
         Buildings,” defines a “prefire plan” as specific plans for firefighting activities at a property or location.
     8
         Material Safety Data Sheets contain information concerning the properties and hazards of chemicals used
         and stored in the workplace, including the engineering and personal protective equipment necessary to
         protect personnel from hazardous exposure.



10                                                                                              REPORT NO. IG-08-027
RESULTS



  Inconsistent and Incomplete Documentation. The response documentation for all
  10 emergencies that we reviewed was inconsistent and incomplete. ICS requires
  responders to develop an Incident Action Plan and to maintain accurate and complete
  files to document the major steps taken during an emergency response. ICS also requires
  responders to retain all emergency-related documentation for legal, analytical, and
  historical purposes.

  The Glenn EPP implements the ICS requirement by requiring the dispatcher to maintain a
  log of all emergency actions taken. However, the logs did not always contain sufficient
  information or were in conflict with other response documentation. For example, during
  the May 4, 2007, interior building fire, the notification and response times recorded in the
  Emergency Dispatch Log were different from the times recorded in the Security Log and
  the Brook Park Fire Department report.

  We also noted that the Emergency Dispatch Logs did not always include
      •   notification of the emergency to security personnel and the Brook Park Fire
          Department;
      •   information regarding who assumed the initial role of Incident Commander or the
          next person who assumed the role of Incident Commander;
      •   arrival times of the first responders, local fire departments, and emergency
          medical services; and
      •   the time the emergency was terminated.

  The Glenn EPP also requires the first responders to provide daily reports to the Safety,
  Health, and Environmental Division regarding their response activities, but does not
  provide guidance as to the content of the reports. During the July 25, 2006, construction
  site injury, the first responder report simply stated that a male was observed lying on the
  ground, that Safety Office personnel had been requested, and that the fire department had
  transported the victim to a local hospital. The report failed to provide pertinent
  information regarding the emergency, such as the extent of the victim’s injuries, that the
  area was not immediately cleared of nonessential personnel, or that the Brook Park Fire
  Department had trouble hoisting the person out of the construction site. An accurate
  record of such information is critical for historical purposes and for effectively recording
  “lessons learned.”


Roles and Responsibilities Not Clearly Defined

  The Glenn responding organizations did not clearly define the roles and responsibilities
  for the personnel required to implement ICS during on-site emergencies. Glenn guidance
  regarding emergency response is under the purview of the Office of Security
  Management and Safeguards. Within that office is the Emergency Management
  Coordinator, who is responsible for developing the Center’s EPP. The EPP provides


REPORT NO. IG-08-027                                                                             11
                                                                                           RESULTS



     general guidance regarding roles and responsibilities of first responders as well as other
     Glenn emergency responders. We do not expect the EPP to contain more than general
     guidance; however, the EPP should require that the responder organizations develop
     supplemental guidance containing specific information concerning roles and
     responsibilities during an emergency. None of the responder organizations had such
     supplemental guidance.

     For example, Glenn first responders report to the Safety Branch of the Safety and
     Mission Assurance Directorate’s Safety, Health, and Environmental Division. However,
     the Safety Branch had not instituted a standard operating procedure to define first
     responders’ tactical actions, lines of authority, qualifications, or use of personal
     protective equipment. In addition, the first responders’ position descriptions did not
     include details concerning responsibilities, limitations, and performance evaluation
     standards associated with first responder duties. The other response organizations
     apparently had not been made aware of those responsibilities and limitations either
     because in two of the emergencies—the July 27, 2005, low-oxygen alarm and the
     January 9, 2006, interior tunnel fire—the Emergency Dispatch Center dispatched the first
     responders to potentially oxygen-deficient atmospheres after the first responders had
     been removed from the Center’s respiratory protection program.


Memorandums of Understanding Not Prepared

     Because Glenn does not have the necessary resources to effectively mitigate major
     emergencies, the Center is dependent on off-site emergency responders. To ensure that
     all emergency responders properly coordinate and integrate their resources during an
     emergency, Centers are required to establish MOUs with the off-site responding
     organizations. Specifically, paragraph 11.3 of NASA Standard 8719.11, “Safety
     Standard for Fire Protection,” August 2000, requires Centers to have written agreements
     when an off-site, non-NASA fire service organization provides fire suppression, fire
     rescue, emergency medical services, and hazardous materials response.

     This is a repeat finding, as that lack of MOUs was cited in two safety audits conducted by
     the NASA Office of Safety and Mission Assurance, the first in December 2005 and the
     second in May 2008. In response to the December 2005 safety audit, Glenn indicated
     that an MOU with the City of Brook Park was 40 percent complete and that the projected
     completion date was July 30, 2006. However, as of the date of this report (2 years later),
     Glenn had not finalized that MOU.


Increased Risks to Personnel, Property, and Mission

     Glenn is continuously exposed to potential hazards and emergencies due to its mission
     and operations, as well as acts of nature. These emergencies could result in the loss of
     life, serious injury, or property damage that could negatively affect NASA’s operations


12                                                                          REPORT NO. IG-08-027
RESULTS



  and missions. To manage its risks, Glenn should have a clear process for responding to
  on-site emergencies that follows a strict chain of command where subordinate responders
  report through that chain to the on-scene Incident Commander. The strict adherence to a
  chain of command reduces the potential for miscommunication and confusion. Glenn’s
  lack of clearly defined roles, responsibilities, and lines of authority for its first
  responders, along with the absence of MOUs with off-site responding organizations, has
  negatively affected the Center’s ability to respond effectively to emergencies. During at
  least two of the emergencies that we reviewed—the March 9, 2005, fire and explosion
  and the July 27, 2005, low-oxygen alarm—the lack of defined roles and responsibilities
  could have resulted in serious injury to the responders and other NASA personnel and
  further damage to Glenn assets.


Other Matters of Interest

  During our review of Glenn’s emergency response system, we visited 10 facilities on
  Glenn’s main campus (Lewis Field) that should have had emergency action plans. Of the
  10 facilities, 6 did not have plans and 3 had plans that were missing critical elements
  required by Federal and Glenn guidance, such as evacuation routes (primary and
  secondary), identification of evacuation monitors, and post-evacuation assembly
  locations where accountability could be determined for all personnel.

  The Occupational Safety and Health Administration Act, 29 Code of Federal
  Regulations 1910 (Standard Number 1910.38), requires employers to have a written
  emergency action plan for each location with 10 or more employees. The emergency
  action plan should include procedures for emergency evacuations, illustrate the primary
  and secondary routes of egress, 9 and define a process for accounting for all employees.
  In addition, the Glenn Safety Manual, Chapter 27, “Building Evacuation Plan Program,”
  requires the development and implementation of an emergency action plan for each
  building. The plans must be developed and implemented in accordance with each
  location’s unique operational environment and should be prominently posted in each
  facility and work location.




  9
      The Glenn Safety Manual defines emergency egress as the process by which a continuous and
      unobstructed way of exit travel is maintained from any point in a building to a predetermined safe
      location. Typically, this is accomplished by overlaying arrows onto facility maps pointing in the
      direction of travel to the building exits.



REPORT NO. IG-08-027                                                                                       13
                                                                                               RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. We recommended that the Chief, Office of Security Management and
Safeguards, review the roles and responsibilities assigned to each of the responding
organizations, to include the off-site organizations, and ensure that the responders are
qualified to assume those roles and responsibilities and can effectively and timely respond to
Glenn emergencies. The Chief, Office of Security Management and Safeguards, should
revise the EPP to reflect any changes in roles and responsibilities based on the review, if
necessary.

     Management’s Response. The Glenn Director concurred, stating that the Glenn
     Emergency Management Coordinator will review the roles and responsibilities of on-site
     and off-site emergency responders to ensure they are qualified and authorized to perform
     those responsibilities and revise the Center EPP to reflect changes in roles and
     responsibilities by November 30, 2009. Specifically, he stated that the Emergency
     Management Coordinator will examine the Glenn EPP and Safety Manual to identify
     specified and implied roles and responsibilities. In addition, the review will include an
     assessment of

             •   composition and roles of the ERT;
             •   coordination with partner agencies; and
             •   training.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive. The recommendation is resolved and will be closed upon completion and
     verification of management’s corrective action.

Recommendation 2. a. We recommended that the Chief, Office of Security Management
and Safeguards, revise the EPP to require that the Glenn organizations with personnel
expected to respond to emergencies develop standard operating procedures that, at a
minimum, include a clear definition of specific roles, responsibilities, authority, and
limitations.

     Management’s Response. The Glenn Director concurred, stating that the Chief, Office
     of Security Management and Safeguards, in conjunction with the Director of Center
     Operations, the Director of Safety and Mission Assurance, and the Emergency
     Management Coordinator, will analyze and determine the best organization for
     emergency response and incorporate the results into the Center EPP by July 30, 2009.
     Specifically, he stated that the revision will incorporate standard operating procedures
     that include clear definition of specific roles, responsibilities, authorities, and limitations.
     Additionally, efforts are underway to incorporate all Center emergency response tasks as
     a function of the ERT, which will allow better utilization of the ICS principles.



14                                                                              REPORT NO. IG-08-027
RESULTS



   Evaluation of Management’s Response. Management’s proposed actions are
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 2.b. We recommended that the Chief, Office of Security Management
and Safeguards, revise the EPP to require that the Glenn Emergency Management
Coordinator review and approve the organizational level standard operating procedures to
eliminate any conflict between the responding organizations and the EPP.

   Management’s Response. The Glenn Director concurred, stating that the Chief, Office
   of Security Management and Safeguards, in conjunction with the Director of Center
   Operations, the Director of Safety and Mission Assurance, and the Emergency
   Management Coordinator, will analyze and determine the best organization for
   emergency response and incorporate the results into the Center EPP by July 30, 2009.
   Specifically, the revision of the EPP will require the Emergency Management
   Coordinator to review and approve the standard operating procedures of the ERT and all
   responding organizations to ensure there are no conflicts.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 2.c. We recommended that the Chief, Office of Security Management
and Safeguards, revise the EPP to require that the Glenn Emergency Management
Coordinator reconciles all emergency response reports to ensure the reports are accurate and
consistent.

   Management’s Response. The Glenn Director concurred, stating that the Chief, Office
   of Security Management and Safeguards, in conjunction with the Director of Center
   Operations, the Director of Safety and Mission Assurance, and the Emergency
   Management Coordinator, will analyze and determine the best organization for
   emergency response and incorporate the results into the Center EPP by July 30, 2009.
   Specifically, the revision of the EPP will require the Emergency Management
   Coordinator to reconcile all emergency response reports to ensure that the information is
   accurate.

   Evaluation of Management’s Response. Management’s proposed actions are
   responsive. The recommendation is resolved and will be closed upon completion and
   verification of management’s corrective action.

Recommendation 3. We recommended that the Glenn Director, in coordination with the
Emergency Management Coordinator, ensure that MOUs are established with non-NASA
organizations that provide fire suppression, fire rescue, emergency medical services, police,
and hazardous chemicals and materials response. The MOUs, at a minimum, should include
the delineation of roles, responsibilities, jurisdiction, and authority of all non-NASA



REPORT NO. IG-08-027                                                                            15
                                                                                          RESULTS



organizations expected to respond to Glenn emergencies and a requirement that ICS is
implemented during all Glenn emergencies.

     Management’s Response. The Glenn Director concurred, stating that the Emergency
     Management Coordinator, in cooperation with the Chief, Security Management and
     Safeguards Office; the Chief, Safety, Health, and Environmental Division; the Office of
     Chief Counsel; and the Center Director’s Office, will initiate negotiations to establish
     MOUs with adjoining or jurisdictional organizations that provide fire suppression, fire
     rescue, emergency medical services, police, and hazardous chemicals and materials
     response by December 10, 2009. He stated that negotiations will take place with the City
     of Brook Park, the City of Fairview Park, Perkins Township, and the Cleveland Hopkins
     International Airport and that the MOUs will require the implementation of ICS during
     all Glenn emergencies. In addition, Glenn is negotiating with Hopkins Airport and the
     City of Brook Park to establish a Joint Fire Station near Glenn.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive. The recommendation is resolved and will be closed upon completion and
     verification of management’s corrective action.

Recommendation 4. We recommended that the Chief, Glenn Safety, Health, and
Environmental Division, ensure that a written emergency action plan is prepared for each
facility at Lewis Field. The plan should address the evacuation procedures, show the
primary and secondary routes of egress, and define a process for accounting for all
employees. The plan should be prominently posted in each facility and work location.

     Management’s Response. The Glenn Director concurred, stating that the Safety,
     Health, and Environmental Division will develop a new emergency action plan for each
     Glenn facility by April 23, 2009. He also stated that the plans will be audited to ensure
     that each plan incorporates evacuation procedures, egress routes, and employee
     accountability. In addition, the plans will be posted on the Center’s intranet and in a
     prominent location in each building.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive. The recommendation is resolved and will be closed upon completion and
     verification of management’s corrective action.




16                                                                         REPORT NO. IG-08-027
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this review from July 2007 through July 2008 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the review to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our review objectives. We believe that
  the evidence obtained provides a reasonable basis for our findings and conclusions based
  on our review objectives.

  We obtained, reviewed, and analyzed Federal, NASA, and Glenn guidance pertaining to
  emergency response, to include HSPD-5, the Occupational Safety and Health
  Administration Act, NASA Standard 8719.11, NPR 8715.2, and the Glenn EPP.

  To assess ICS implementation during Glenn emergencies, we selected 10 emergencies
  from the IRIS database and analyzed applicable documentation for the response
  activities. That documentation included Emergency Dispatch Logs, first responder daily
  reports, Brook Park Fire Department reports, Mishap Investigation Board reports, and
  Security Logs.

  We interviewed the Glenn Emergency Management Coordinator; the first responders; the
  Fire Protection Engineer; the Chief, Safety, Health, and Environmental Division; an
  Industrial Hygienist; and the Captain of Glenn Security. We also interviewed personnel
  from local fire departments.

  To determine whether the emergency response system had adequate oversight, we
  reviewed Glenn’s post-incident critique reports. We also evaluated reviews and audits
  conducted by NASA’s Office of Safety and Mission Assurance and determined whether
  corrective actions were taken in response to any findings and recommendations and the
  extent of follow-up performed to ensure that corrective actions were taken.

  Sampling Plan. We obtained the population of Glenn emergencies for FYs 2005, 2006,
  and 2007 from the NASA IRIS database. The total population of Glenn emergencies for
  the 3-year period was 572: 189 in 2005, 175 in 2006, and 208 in 2007.

  We selected 10 Glenn emergencies from the IRIS database based on a stratification of
  cases by year, then by mishap classification (Types A, B, C, and D Mishaps and Close
  Calls). To cover the spectrum of emergencies, we included at least one emergency from
  each mishap classification. Of the 572 emergencies, two were serious (categorized as
  Type A and Type B Mishaps). We included those two emergencies in our sample and
  then selected eight other emergencies, considering incident description, mishap


REPORT NO. IG-08-027                                                                          17
                                                                                       APPENDIX A



     classification, and date of occurrence. Our review of Glenn’s response to these
     10 emergencies forms the basis of our results.

     Use of Computer-Processed Data. We used computer-processed data from IRIS to
     identify the population of Glenn emergencies relative to safety issues. We did not
     evaluate whether IRIS contained all of Glenn’s reportable incidents; however, we believe
     the data was adequate for selecting emergencies for more detailed review.

     We identified some errors within the IRIS database and informed Glenn management,
     who agreed to correct the errors. The errors within IRIS did not affect the results of our
     review.


Review of Internal Controls

     We reviewed internal controls for the Glenn emergency response process, including
     policies and procedures and oversight by Glenn’s Chief, Office of Security Management
     and Safeguards, and Chief, Safety, Health, and Environmental Division. We identified
     internal control weaknesses in Glenn’s emergency response process, which are discussed
     in the finding. Our recommendations, if implemented, will improve the controls over
     Glenn’s emergency response process.


Prior Coverage

     During the last 5 years, the NASA Office of Safety and Mission Assurance has issued
     two reports concerning Glenn’s emergency preparedness. The NASA Office of Inspector
     General has also issued two reports that discuss safety issues at Glenn. NASA Office of
     Inspector General reports may be accessed over the Internet at
     http://oig.nasa.gov/audits/reports/FY08/.

     NASA Office of Inspector General

     “Effective Inspection Program Key to Improving Laboratory Safety at Glenn Research
     Center” (IG-07-032, September 24, 2007) addressed laboratory safety and the process for
     reviewing, approving, and maintaining safety permits for Glenn laboratory operations.

     “NASA’s Implementation of the National Incident Management System” (IG-06-016,
     August 29, 2006) found that each Center’s EPP, including Glenn’s, did not fully comply
     with NIMS requirements.




18                                                                          REPORT NO. IG-08-027
APPENDIX A



  NASA Office of Safety and Mission Assurance

  “NASA Institutional/Facilities/Operational Safety Audit of Glenn Research Center”
  (May 29, 2008) found a noncompliance issue previously reported in their December 14,
  2005, report regarding no written agreement with the Brook Park Fire Department or
  Hopkins International Airport Fire Department for non-aircraft emergencies.

  “NASA Institutional/Facilities/Operational Safety Audit of Glenn Research Center”
  (December 14, 2005), found that emergency preparedness was satisfactory overall;
  however, the Center needed to ensure that all first responders, managers, and employees
  were properly trained to meet the challenges of threats and disasters, and the Center
  needed to establish an MOU with the City of Brook Park for fire protection services.




REPORT NO. IG-08-027                                                                        19
                      APPENDIX B




     MANAGEMENT COMMENTS




20           REPORT NO. IG-08-027
APPENDIX B




REPORT NO. IG-08-027   21
              APPENDIX B




22   REPORT NO. IG-08-027
APPENDIX B




REPORT NO. IG-08-027   23
              APPENDIX B




24   REPORT NO. IG-08-027
APPENDIX C




                                                      REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Chief, Safety and Mission Assurance
  Director, Glenn Research Center
     Director of Center Operations
         Chief, Office of Security Management and Safeguards
             Emergency Management Coordinator
     Director, Safety and Mission Assurance Directorate
         Chief, Safety, Health, and Environmental Division

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Defense, State, and NASA Financial Management, Office of Financial
        Management and Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Space, Aeronautics, and Related Sciences
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Management, Organization, and Procurement
  House Committee on Science and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




REPORT NO. IG-08-027                                                                25
Major Contributors to the Report:
   Raymond Tolomeo, Director, Mission Programs and Projects Directorate
   Ronald Yarbrough, Project Manager
   Dennis Clay, Team Lead
   Lynette Westfall, Auditor
   Elizabeth Shifflett, Report Process Manager




REPORT NO. IG-08-027                                                      27
                                                                             SEPTEMBER 3, 2008
                                                                   REPORT No. IG-08-027




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY08 to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Director of Special
Projects and Quality Assurance, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
